<html>
<title> - THE IMPACT OF FEDERAL ENVIRONMENTAL REGULATIONS AND POLICIES ON AMERICAN FARMING AND RANCHING COMMUNITIES</title>
<body><pre>[Senate Hearing 115-198]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 115-198

                  THE IMPACT OF FEDERAL ENVIRONMENTAL
                  REGULATIONS AND POLICIES ON AMERICAN
                    FARMING AND RANCHING COMMUNITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.govinfo.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-478 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 7, 2018
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Hansen, Niels, Secretary-Treasurer, Public Lands Council, and 
  member, National Cattlemen's Association.......................     6
    Prepared statement...........................................     9
Duvall, Zippy, President, American Farm Bureau Federation........    15
    Prepared statement...........................................    17
Hill, Howard, Director of Veterinary Services and Multiplication 
  Iowa, and Past President, National Pork Producers Council......    50
    Prepared statement...........................................    52
    Response to an additional question from Senator Booker.......    65
Scuse, Michael, Secretary of Agriculture, State of Delaware......    69
    Prepared statement...........................................    71
    Responses to additional questions from:
        Senator Carper...........................................    74
        Senator Markey...........................................    75
Teske, Donn, Vice President, National Farmers Union..............    77
    Prepared statement...........................................    79
    Responses to additional questions from:
        Senator Carper...........................................    86
        Senator Markey...........................................    87

 
    THE IMPACT OF FEDERAL ENVIRONMENTAL REGULATIONS AND POLICIES ON 
               AMERICAN FARMING AND RANCHING COMMUNITIES

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2018

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Shelby, 
Cardin, Merkley, Gillibrand, Booker, Markey, Duckworth, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today we will hold a hearing on the impact of Federal 
environmental regulations and policies on American farming and 
ranching communities.
    The discussion here today is not about the value of 
environmental regulations, but about how some Federal 
regulations can be inflexible, antiquated, duplicative, and 
ultimately harmful to American agriculture, a critical part of 
our nation's economy.
    Members of this Committee should work to ensure 
environmental laws are strong and effective, without being 
overly burdensome. This is often a difficult task.
    The United States is blessed with diverse ecosystems that 
often require different kinds of stewardship to remain healthy. 
In Wyoming, we have an abundance of sagebrush prairie, 
coniferous forests, a variety of mountain habitats and 
wetlands. Wyoming ranchers and farmers are familiar with each 
ecosystem and its needs. This is where they work, live, and 
invest their energies.
    Farmers and ranchers are the original stewards; they 
understand that landscapes and watersheds need to be healthy to 
support native plants, wildlife, crops, and livestock. They are 
living proof that interacting with nature can be done in an 
environmentally sound way, often leaving the resources in 
better condition than they found them.
    Washington policies do not always translate well in rural 
America. When I am home in Wyoming I often hear how out of 
touch environmental regulations have become. For far too long 
the people who feed, clothe, and house our nation have been 
burdened by policies that fail to reflect on the ground 
realities.
    We can look no further than the Obama administration's 
failed Waters of the United States rule. Under that rule, 
farmers and ranchers across the country were told that 
irrigation ditches, ponds, and puddles were ``navigable 
waters'' and could be regulated by the Federal Government.
    I am happy to say that, last week, the delay in 
implementation of the WOTUS rule became final, giving the EPA 
and the Army Corps of Engineers time to make sure that any new 
rule protects America's water resources, while not 
unnecessarily burdening farmers, ranchers, small businesses, 
and communities across America.
    When writing legislation, Congress must take care to ensure 
policy actually achieves the desired objective. Agencies must 
do the same when developing regulations. I believe that we 
should prioritize updating and revising policies that, while 
well intentioned, were not designed to micromanage agriculture 
production.
    One example is the new animal waste emission reporting 
requirements. Over the past several months farmers and ranchers 
struggled to comply with ambiguities and an ambiguous agency 
directive following an April 2017 decision in the D.C. Circuit 
Court. That decision fundamentally changed reporting 
requirements under the Comprehensive Environmental Response, 
Compensation, and Liability Act and the Emergency Planning and 
Community Right-to-Know Act, collectively known as CERCLA and 
EPCRA.
    The ruling meant up to 100,000 farmers and ranchers, who 
have never been required to report under these laws, were 
suddenly required to comply. Even though they wanted to comply 
with the ruling, the process and the implications of compliance 
were unclear. Because both CERCLA and EPCRA were not written 
with the intent of regulating these farms and ranches, the 
requirement to report emissions from animal waste came without 
context and largely without any agency guidance.
    Let me now turn to NEPA, the National Environmental Policy 
Act. We cannot discuss environmental regulations and their 
impact on agriculture operations without mentioning NEPA. NEPA 
is at the core of every decision in each land use plan, 
resource management proposal, trailing and crossing permit, and 
grazing allotment that farmers and ranchers need.
    NEPA is not limited to agriculture. For years we have 
discussed the effect NEPA has had on delaying the construction 
of roads, bridges, parks, reservoirs, and other critical 
infrastructure.
    While environmental analysis can be important in many 
cases, completing NEPA takes far too long. As NEPA delays 
stifle improvements around the farm or ranch areas, calves and 
lambs grow and are sold, ecosystems need change, and farmers, 
ranchers, and their families wait for an answer. As we will 
hear from today's witnesses, these are families whose lives, 
livelihoods, hopes, and dreams are inseparable from the lands 
and the waters that they work so hard to keep clean.
    These are not the only examples of punishing regulations 
that farmers and ranchers and the communities they live in 
face. Today we will also hear about duplicative permitting 
requirements of the application of pesticides already covered 
under the Federal Insecticide, Fungicide, and Rodenticide Act, 
or FIFRA; issues of privacy and the collection of data on 
farmers and ranchers; on how the Endangered Species Act has 
been implemented and the subsequent negative impact on farming 
and ranching operations.
    These and other examples will be discussed so we, as a 
Committee, can better understand how we can help these hard 
working communities across our country.
    Before we move on to our witnesses today, I would like to 
turn to the Ranking Member, Senator Carper, for his remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Thanks very much for 
bringing us all together today.
    And a special thanks to our witnesses. I feel privileged to 
be able to introduce Michael Scuse, our Secretary of 
Agriculture for a second tour, in a moment.
    But first let me give a brief statement, then I would like 
to introduce Michael.
    No other sector of our nation's economy's success is more 
closely tied with the quality of our environment than is the 
agriculture sector. Farmers are our nation's original 
conservationists. They understand better than anyone else the 
need for clean air, for clean water, and high quality soil in 
order to produce the food that we need not just to feed 
ourselves, but really to feed the world.
    In Delaware over 40 percent of our land is dedicated to 
farming, and our State's agriculture sector employs some 30,000 
Delawareans, while contributing nearly $8 billion a year to our 
State's economy. I am proud to say that First State farmers are 
first in the nation for the value of product produced per acre, 
first in the number of lima beans harvested, and I think in 
Sussex County, which is the third largest county in America, 
first in production of broilers--chickens--by county. We do all 
this while practicing exceptional environmental stewardship 
while our farming community is working closely in partnership 
with USDA, with State agencies, and our universities.
    Our nation's environmental laws have been instrumental in 
helping us deliver clean air, clean water, and productive lands 
for our farmers and our ranchers. I should add to that list our 
foresters, our fishing communities, because their success is 
also greatly dependent on a healthy environment and vital 
ecosystems.
    For example, EPA has found that the 2005 Clean Air Act 
rules that protect our lungs from ground smog also protect our 
crops and animals, to the tune of $13 billion in estimated 
benefits by 2020. The Clean Air Act also protects crops from 
damaging ultraviolet radiation by protecting the planet's ozone 
layer and limiting the use of ozone depleting chemicals. In 
fact, it turns out that those Clean Air Act protections will 
prevent an estimated 7.5 percent drop in future crop yields in 
2075.
    There are other environmental issues where we need to act 
and do more to help our farmers. For example, climate change is 
already disrupting the livelihood of farmers and ranchers. The 
Federal Government's Third National Climate Assessment found 
that ``Climate disruptions to agricultural production have 
increased in the past 40 years and are projected to increase 
over the next 25 years. By mid-century and beyond, these 
impacts will be increasingly negative on most crops and 
livestock.''
    The Climate Science Special Report released in November 
2017 confirmed these trends. I look forward to hearing the 
testimony of our witnesses on this topic.
    Other environmental programs have created new income 
opportunities for farmers. The Renewable Fuel Standard has been 
a major economic driver in farm communities across our country. 
In addition, tens of thousands of farmers across our country 
are enrolled in USDA's conservation programs that pay farmers 
for the water quality and habitat conservation services they 
provide and protect.
    I acknowledge, though, that sometimes environmental 
requirements can be complex. The Chairman has referred to this 
already. But those requirements can be confusing to those who 
farm. One such example is the air emissions reporting 
requirement for farms under two laws, the Comprehensive 
Environmental Response, Compensation, and Liability Act, known 
as CERCLA, and the Emergency Planning and Community Right-to-
Know, known as EPCRA.
    In 2008 the Bush administration promulgated a rule that 
exempted all but the largest farms from reporting under these 
laws. In 2017 the D.C. Circuit Court overturned the 2008 rule, 
putting farmers on notice that they would soon need to begin 
reporting. Unfortunately, EPA's reporting guidance to farmers 
for this reporting has been confusing, and it has been 
unhelpful.
    Along with a number of other colleagues here in this room 
and outside this room, I have been pushing EPA for several 
months to do better. EPA agreed it had more work to do, and at 
our urging agreed to request more time from the court to 
continue developing a workable guidance and if necessary to 
give Congress the time to act on this issue. Thankfully, the 
court agreed, and last week, as we know, gave EPA until May 1st 
to get this right.
    With the 2008 rule no longer in place, I am committed to 
working toward a solution that balances the burden of this 
reporting on our farmers with the legitimate needs of public 
health and emergency response officials, and the right of local 
community members to know about the pollution in their air. 
This is what the Bush administration sought to do in 2008, and 
it is how I believe we should proceed now.
    If I could, Mr. Chairman, just do a quick word of 
introduction on Michael Scuse, who is joining us today. I am 
tempted just to read his bio; it is incredible. I won't do 
that, but really an incredible record of service and 
achievement.
    The Scuse family is highly regarded in our State. We have 
three counties. Smyrna is in the middle of our State, just 
north of Dover. The Scuse family has farmed there forever and 
has enjoyed great success and really been a role model for a 
lot of folks in farming and outside of farming.
    I mentioned in my statement that farmers were our first 
original conservationists. The Scuse family is a great example 
of that.
    In addition to serving through the work that he has done 
with his own family business, he has served as our Secretary of 
Agriculture not once, for 8 years-- almost 8 years--under 
Governor Ruth Ann Minner, but he also served as her chief of 
staff for a period of time, and in the current administration 
of Governor John Carney he is again our Secretary of 
Agriculture, and we are delighted that he is.
    In addition to that, he was asked, in the Obama 
administration, to come down here and to serve in Washington in 
a number of senior leadership positions, including 
Undersecretary at the Department of Ag, Acting Deputy Secretary 
of Agriculture, Acting Secretary of Agriculture for our 
country. Just extraordinary, and I am just thrilled that he 
could be here today. He is a good friend, someone that we are 
just honored to say that he is a Delawarean.
    We are honored that you are here today with us, Michael, 
and I salute you for all that you have done and continue to do. 
Thank you for joining us.
    Senator Barrasso. Thank you, Senator Carper.
    Before we head to the panel, we have a number of 
introductions to be made. Senator Ernst and Senator Moran have 
introductions.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Today I have the great honor of introducing a fellow Iowan, 
Dr. Howard Hill, a hog farmer from Cambridge, who serves as 
President of the National Pork Producers Council and is a 
veterinarian with Iowa Select Farms.
    Previously Dr. Hill was Director of Veterinary Services and 
Multiplication for Murphy Family Farms in Rose Hill, North 
Carolina, and was head of Veterinary Microbiology in the Iowa 
State University Veterinary Diagnostic Laboratory.
    Dr. Hill served as President of NPPC for the 2014-2015 
term, and prior to that was a member of the NPPC Board of 
Directors, serving on a number of committees and co-chairing 
the Environmental Policy Committee. He also served on the Board 
of Directors of the Iowa Pork Producers, where he was the 
Chairman of the Research Committee and the Contract Growers 
Committee.
    Dr. Hill owns a sow farrow to finish farm, which produces 
breeding stock for DanBred USA. He also partners with his son 
on the family farm, where they have a pure bred Angus herd and 
2,500 acres of row crops.
    Thank you for being here today, Dr. Hill. We look forward 
to hearing your testimony.
    Thank you so much.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you.
    Thank you to you and the Ranking Member for having our 
hearing, and it is an honor for me to introduce to the 
Committee Donn Teske, a Kansas farmer from Wheaton, Kansas, in 
the north-central part of our State. Donn has been actively 
engaged in the National Farmers Union and the Kansas Farmers 
Union for a very long time. He is a leader in agriculture and 
rural America, and I hold Donn in high regard for his love for 
and passion for small towns across our State. He recognizes 
fully, as most of us do, that if rural America is going to have 
a future, it is because farmers and ranchers are having 
success.
    I appreciate him, and especially here on the conservation 
issue. He has a great love for the land and understands how 
important clear skies and good soil and clean water are to 
Kansans across our State.
    So, Donn, I welcome you to the Committee, and I thank you 
for your testimony; I look forward to hearing it.
    Senator Barrasso. Thank you, Senator Moran.
    We also have joining the panel Mr. Zippy Duvall, who is the 
President of the American Farm Bureau Federation, but first we 
are going to hear from Mr. Niels Hansen.
    Niels joins us today from Rawlins, Wyoming. He is the 
immediate past President of the Wyoming Stock Growers 
Association, currently serves as the Secretary and Treasurer 
for the Public Lands Council. As a third generation rancher, 
Niels knows that raising cattle, sheep, and horses is full of 
challenges. Over the years Niels has worked with the University 
of Wyoming and the Bureau of Land Management to develop 
cooperative range land monitoring, which has allowed Niels to 
become intimately familiar with both the needs of his livestock 
and the needs of range land ecosystems.
    His successful stewardship is evident in the longevity and 
success of his family ranch, which has also been recognized for 
many years in Wyoming and nationally. The Bureau of Land 
Management recognized Niels's ranch with the BLM Range Land 
Management Stewardship Award in 2000, and in 2001 the ranch was 
named the Little Snake River Conservation District Cooperator 
of the Year.
    Niels has been recognized repeatedly for his leadership in 
the industry and in his community. He has served as a member of 
the Rawlins Search and Rescue, and was inducted into the 
Wyoming Agriculture Hall of Fame in 2011.
    Niels, I am pleased to have you with us here today to lend 
your wealth of experience to the Committee. I ask that you 
please proceed.

 STATEMENT OF NIELS HANSEN, SECRETARY-TREASURER, PUBLIC LANDS 
     COUNCIL, AND MEMBER, NATIONAL CATTLEMEN'S ASSOCIATION

    Mr. Hansen. Thank you, Chairman Barrasso, Ranking Member 
Carper, members of the Committee. Thank you for having me here 
today to address how the Federal regulations affect my ranch 
and others across the country.
    My name is Niels Hansen. My family has been ranching in our 
area for 120 years. Today, my son is home taking care of the 
ranch so that I can be with you today to discuss these issues.
    As stated, I am the past President of the Wyoming Stock 
Growers Association, past Chairman of the Wyoming State Grazing 
Board, a member of the National Cattlemen's Association, and I 
currently serve as Secretary-Treasurer for the National Public 
Lands Council.
    Our ranch covers 230,000 acres of ground in central 
Wyoming; consists of private and BLM in the checkerboard land 
pattern. We span over three watersheds.
    Beyond ranching, I spent much of the last 30 years working 
on these issues that we are discussing today in Wyoming, in 
Washington, DC, and across the West. As recently as last week, 
at the National Cattlemen's Convention, I taught a class on 
working with Federal agencies and trying to educate people how 
to get along and work toward a goal.
    In our interactions with the Federal agencies, our first 
priority is always to identify common ground and to work 
together. But we are constantly tangled in a web of Federal 
regulations. I am here today to talk about just a few of those 
regulations that impact my ranch and my family.
    As long as it remains on the books, the Obama era WOTUS 
rule continues to be a serious threat to our operation. On our 
ranch, we wrestle with the management of three watersheds. None 
of them drain directly into adjacent Federal waters, but under 
the ambiguous and overreaching 2015 rule, it is impossible to 
know whether we are exempt or not. As a family rancher, I 
should not need to hire hydrologists, engineers, and attorneys 
to figure this out.
    I am grateful the Administration has taken steps to roll 
back this rule and replace it with something more workable, but 
more work still needs to be done. The ranching community stands 
ready to help in any way we can.
    Another regulation I shouldn't be wrestling with in our 
cow-calf operation is the reporting requirements under CERCLA 
and EPCRA. The simple fact is emissions from normal livestock 
operations should not be covered under this rule. In 
particular, it is absurd to require such reporting for a 3,000-
head operation like mine spread across 60 square miles. Such an 
operation would never require a coordinated emergency response. 
Congress needs to fix this.
    As we all know, you can't discuss ranching anywhere in the 
country without taking into account wildlife management. Two 
pieces of legislation that make it very difficult for me are 
the Endangered Species Act and the Migratory Bird Act. However 
well intended, ESA is 40 years old. It needs to be updated to 
reflect lessons learned and the issues of today. The path 
forward must work for all, not just environmental litigants 
that pay their bills with proceeds from legal settlements. Our 
best opportunity to modernize ESA is through last year's 
bipartisan Western Governors' recommendations to this 
Committee.
    But only addressing ESA does not solve the whole problem. 
The Migratory Bird Act is working so well that populations of 
ravens are exploding on my ranch and around the West. This Act 
allows for proportionate response to growing populations that 
threaten both the sage grouse and our young livestock, but 
Federal agencies are slow to grant us necessary perdition 
authority and expanded baiting flexibility. For me, it is the 
ravens. In other parts of the country the cormorants, black 
vultures, and other predators are the issue.
    In conclusion, please recognize that the ranchers are your 
eyes and ears on the land. We are your best tool to achieve any 
real conservation objectives on the ground. Turn us loose. No 
one is more dedicated to the health of the land than those of 
us who are dependent on it. Let the ranchers do what we do 
best. Everyone will benefit--the species, the ecosystem, and 
the rural communities.
    Thank you again for hearing my testimony. I look forward to 
answering any questions.
    [The prepared statement of Mr. Hansen follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Senator Barrasso. Well, thank you so much for traveling 
here from Wyoming, and thanks for that excellent testimony. We 
appreciate it.
    Mr. Duvall.

             STATEMENT OF ZIPPY DUVALL, PRESIDENT, 
                AMERICAN FARM BUREAU FEDERATION

    Mr. Duvall. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. I appreciate the 
opportunity to come talk to you about real world impact on 
overregulation of farmers and ranchers.
    My name is Zippy Duvall, and I am a beef and poultry farmer 
in Georgia. My son is at home right now; he is fourth 
generation, and also providing large animal veterinary medicine 
in our community.
    I was elected President of the American Farm Bureau 2 years 
ago, and I visited farms in all 50 States since I have become 
President, and I talked to them about the things that keep them 
awake at night. The two issues that have come up at almost 
every farm that I have visited were the lack of adequate legal 
supply of labor and the burden of overregulation on their 
farms.
    Regulatory process today is a product of decades of 
administrative and judicial decisions without much effort to 
integrate these decisions into a system that makes sense to all 
of us. Farmers and ranchers have shared their stories about the 
impact of regulations on their lives and their farms as I visit 
them.
    In West Virginia, a poultry farmer who operates one of the 
cleanest farms that we have ever seen is spending tens of 
thousands of dollars on legal bills to defend their farm in 
court against EPA's misinterpretation of the Clean Water Act.
    Federal officers, without any authority from Congress and 
without public notice, have used what amounts to extortion 
against ranchers in Utah to force them to hand over their 
private water rights as a condition of getting Federal grazing 
permits.
    The Endangered Species Act has not been successful in 
recovering listed species; only 50 species have been recovered 
out of 1,661 species listed in the past 45 years. That is a 3 
percent success rate. Eleven species have gone extinct while 
under this Federal protection. Meanwhile, the ESA has made it 
harder for farmers and ranchers to use their land and protect 
their livestock.
    And last, but not least, the EPA, under provisions of the 
previous Administration, finalized the Waters of the U.S. rule 
that epitomizes the failure of our current regulatory system. 
The law that governs this process, the Administrative Procedure 
Act, is more than 70 years old and is way overdue for reform, 
especially when you consider how social media can shape public 
input.
    Finally, Mr. Chairman, I have met farmers and ranchers who 
are not sure that they want to encourage their children to 
remain on the farm. And I remind you the average age of the 
American farmer is 58 years old. A generation of farmers and 
ranchers will be hanging up their hats within a few years, and 
we need to ask ourselves who is going to be willing to step up 
and take the place to grow the food for our tables in America 
and around the world.
    As committed as young people are, like my son, Zeb, who are 
farming and ranching, they cannot continue if the over-
regulatory burdens continue to grow. Farm income is down about 
50 percent compared to 5 years ago, but I assure you the 
regulatory costs have not gone down any. These facts would give 
pause to even the most dedicated farmer and rancher around this 
country.
    I would like to close with a quote from a statesman from my 
home State, President Jimmy Carter. He signed an executive 
order in March 1978 that states, ``Regulations should not 
impose unnecessary burdens on the economy, on individuals, on 
public and private organizations, or on State and local 
governments. Regulations should be developed through a process 
which ensures that compliance costs, paperwork, and other 
burdens on the public are minimized.''
    And then there is President Trump's executive order of a 
year ago that requires agencies to repeal two rules for every 
one rule that they issue. And in signing that executive order, 
the President said, ``Every regulation should have to pass a 
simple test: Does this make life better or safer for American 
workers and consumers?''
    This is not a partisan issue. This is about allowing our 
farmers and businesses to be productive. It is about a goal 
that I believe we all share, a regulatory process that is 
credible, one that we can get behind, instead of having to 
fight against.
    Thank you, Mr. Chairman, and I am glad to answer any 
questions that you and your colleagues have.
    [The prepared statement of Mr. Duvall follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
   
    
    Senator Barrasso. Thank you very much, Mr. Duvall, for your 
testimony.
    Dr. Hill.

 STATEMENT OF HOWARD HILL, DIRECTOR OF VETERINARY SERVICES AND 
    MULTIPLICATION IOWA, AND PAST PRESIDENT, NATIONAL PORK 
                       PRODUCERS COUNCIL

    Mr. Hill. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee. I would also like to give 
a special thanks to my home State Senator, Joni Ernst, who has 
done a tremendous amount of work for Iowa farmers.
    My name is Dr. Howard Hill. I am a veterinarian and pork 
producer from Cambridge, Iowa, and past President of the 
National Pork Producers Council, on whose behalf I am 
testifying today.
    Pork producers are deeply committed to responsibly managing 
their animals and the manure they produce to protect water and 
air quality, and to maximize the manure's benefit and value as 
a vital source of nutrients for crops we grow. NPPC and pork 
producers have a long and proud history of working 
cooperatively with environmental regulators at the State and 
Federal levels, and are supportive of Federal environmental 
policies and programs if they are grounded in three primary 
principles: one, the environmental performance expectations for 
producers have a high probability of resulting in meaningful 
environmental improvements; two, the measures involved are 
practical and affordable; and three, producers are given a 
realistic amount of time to adopt the measures and associated 
systems to their operations so they can continue to be 
profitable and successful.
    NPPC has worked with EPA on numerous occasions to ensure 
the Agency's rules meet those principles and that they 
ultimately protect the environment. One of the best examples of 
our cooperative effort was the National Air Emissions 
Monitoring Study of the emissions of swine operations. Pork 
producers used about $6 million of their own funds to support 
that EPA-supervised third-party study and approximately 5,000 
swine facilities enrolled with EPA in air consent agreements 
that made the work possible.
    But when necessary, NPPC will fight bad environmental 
policies and programs. Pork producers do not oppose 
environmental regulations, but they will oppose rules that are 
not sound, effective, and practical. An example of the latter 
is the requirement to report air emission releases under CERCLA 
and EPCRA. Almost all livestock farmers are now required to 
report ammonia emissions that result from natural breakdown of 
animal waste.
    When EPA first issued the rules on those reports in 2008, 
all the livestock farmers were exempt from CERCLA reporting, 
and all but the largest operations were exempt from EPCRA 
because producers and EPA never believed that routine 
agriculture emissions from manure constituted the type of 
emergency or crisis that CERCLA or EPCRA were intended to 
address. Animal agriculture also never understood how the 
reporting of farm emissions to the U.S. Coast Guard under 
CERCLA would have supported the legitimate emergency response 
purpose of those regulations.
    The reports that were required under EPCRA had to be made 
to State and local emergency response authorities in January 
2009. At the time, EPA completely dropped the ball. The Agency 
failed to provide any guidance to farmers on how to report 
emissions, and it failed to provide guidance to the State and 
local agencies that were going to receive those reports, and as 
a result, chaos ensued.
    Almost all producers trying to report emissions had 
difficulty reaching State and local emergency response 
authorities either because phone lines were overwhelmed or fax 
machines just ran out of paper. Those who did manage to get 
through and submit reports were met with disbelief and 
confusion. Statements such as ``Why are you submitting this to 
us?'' and ``What are we supposed to do with this information?'' 
were common. In Illinois, for example, farmers were told there 
was no rule requiring reporting and that this was merely an 
Internet hoax. In the southeast, EPA told local authorities 
that their reports were supposed to be submitted to EPA's Water 
Office.
    In the wake of that chaos, NPPC and other agriculture 
groups, in early 2009, filed lawsuits challenging EPA's 2008 
rule. Last April the D.C. Circuit finally ruled in this case, 
throwing out the agricultural exemption from the two reporting 
rules and forcing tens of thousands of livestock farmers to 
figure out how to estimate and report their emissions. The 
latest industry estimate of the number of animal producers now 
subject to reporting requirements is over 200,000.
    While the pork industry is certainly prepared to comply 
with CERCLA and EPCRA once the appeals court mandates take 
effect, it should be noted that EPA, the U.S. Coast Guard, and 
State and local emergency response authorities have all gone on 
record saying not only is there no need for this information, 
but that its volume will create a major management challenge 
for them and that it will interfere with their other legitimate 
emergency functions. It is for this reason that NPPC is 
supporting a legislative fix to address the requirements in 
CERCLA, and if possible, EPCRA, and we urge members of this 
Committee to do likewise.
    To conclude, pork producers are proud of their 
environmental efforts over the past 50 years, a period that has 
seen the amount of pork produced double, while the use of feed, 
water, and land has been reduced significantly, and our carbon 
footprint has decreased by 35 percent. NPPC and the U.S. pork 
industry stand ready to work with Congress, Federal and State 
agencies, and anyone who is willing to work with us to help 
producers improve our environmental stewardship efforts and to 
address new challenges. Thank you.
    [The prepared statement of Mr. Hill follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    Senator Barrasso. Thank you very much, Dr. Hill.
    Secretary Scuse.

                  STATEMENT OF MICHAEL SCUSE, 
          SECRETARY OF AGRICULTURE, STATE OF DELAWARE

    Mr. Scuse. Good morning, Chairman Barrasso and Ranking 
Member Carper, members of the Committee. I appreciate the 
invitation to speak to you today about the impacts of Federal 
regulations and policies on American farming and ranching 
communities.
    Delaware has benefited from many of the environmental 
policies and regulations that have come from our Federal 
partners. We are able to see examples on a daily basis that are 
benefiting not only our family farms, but also the State and 
our efforts to improve the overall environment.
    Middletown, Delaware, once a large farming community, 
continues to have good neighborly relations today. While our 
understanding of agriculture might not be the same as the 
original farm community, Middletown citizens have embraced 
agriculture through education and advocacy from the local 
agriscience programs, cooperative extension, as well as farm 
groups.
    As you can imagine, the influx of additional residents has 
increased the usage of water resources, while farmers still 
need to irrigate their crops. Through the town's wastewater 
treatment plant, wastewater is recycled and used to spray 
irrigation on those neighboring farms, as part of the 
Chesapeake Watershed, making sure runoff does not occur; it is 
extremely important.
    Delaware farmers are able to utilize a variety of 
conservation practices supported by research. The moneys that 
are provided for conservation districts and supplemented by 
USDA NRCS have been extremely important in enhancing and 
supporting the usage of cover crops. These crops not only can 
reduce the amount of soil loss from wind and water erosion, but 
can also scavenge residual nutrients and release them during 
the next growing season.
    EPA has helped generate funds to support one of the best 
nutrient management programs in the country, thanks to now 
Senator Carper, then-Governor Carper. With a talented staff 
dedicated to helping farmers and protecting the environment, we 
have been able to update our compliance standards, meeting the 
regulations set forth by EPA. We have been able to fund 
collaborations with third-party specialists, like Tetra Tech, 
to develop modeling and enhanced data to support our new 
compliance standards.
    The Renewable Fuel Standard has increased demand for corn. 
In 2000 American farmers produced 10 billion bushels of corn. 
By 2016 farmers were producing 14.6 billion bushels of corn to 
meet the demand. Many people look at the Renewable Fuel 
Standard creating a demand for corn dedicated to ethanol that 
improves our air quality and lessens our demand on non-
renewable resources, but it also created additional feed 
markets.
    Poultry litter relocation programs have spawned a growing 
industry between poultry farms without acreage to utilize those 
in need of fertility. It has offered an alternative option to 
farmers who have phosphorous overload and cannot apply poultry 
litter to their fields. The program has also created compost 
products and pilot energy generation projects.
    In Delaware, we have noted climate changes, including 
patterns of increased temperate with risk of drought and 
extreme rainfall events. In addition to the obvious effects of 
increasingly frequent drought conditions, climate change is 
also predicted to result in higher frequency and intense 
rainstorms. Increasing intervals of intense storms presents a 
risk for agriculture BMP practices that are designed for 
trapping and treating capacity for storm water or combined 
water flows from agricultural areas. These intense rainfall 
events will impact crops as the timing of these intense 
rainfalls could result in crop failures, such as when the crop 
has not yet emerged in the early development, and thus much 
more susceptible to flooding.
    In some cases, rainfall can also destroy older crops, 
particularly fruits and vegetables, like watermelons and 
cantaloupes, that have substantial input cost. Likewise, warmer 
winter temperatures can lead to fruit trees setting earlier 
blossoms, which increases the chance of frost-freeze damage, as 
was witnessed in the Mid-Atlantic in the spring of 2016.
    Last, as the climate warms/changes, there is the chance 
that certain agricultural and forest pests may expand their 
ranges. For instance, some pest ranges may have been limited by 
cold temperatures. But as that maximum low temperature for an 
area rises, then that pest now is able to expand its range and 
survive where it previously could not.
    The Delaware Agriculture Department is partnering with USDA 
NRCS on agriculture conservation through programs like the 
Environmental Quality Incentives Program, that help with cover 
crops and practices that improve our environment and the 
Agriculture Conservation Easement Program, or Ag Land 
Easements, that benefit Delaware's Farmland Preservation 
program. But there is a need for streamlining efforts. The 
ACEP-ALE was instituted, replacing an older program, and it 
took us 3 years of negotiation until terms were agreed upon. In 
those 3 years Delaware lost its funding.
    The uncertainty and continuation of deadline extension 
surrounding CERCLA has caused confusion for producers and 
States, and there is a need for a legislative fix. We cannot 
keep putting farmers on notice, wondering when they will be hit 
with legal liability for untimely or inaccurate reporting.
    Farmers and ranchers value and understand the need to 
protect waters of the U.S. The Department of Agriculture and 
the States are willing to put the effort to assist farmers, but 
we would appreciate a common sense approach to address the 
issues, as well as timely outreach and education materials to 
WOTUS. We need a clear definition that is objective.
    Finally, an additional option to improving the 
environmental conditions would be to remove environmentally 
sensitive tillage acreage from consideration, changing the CRP 
program acreage from 24 million to 30 million acres.
    Ladies and gentlemen, our farmers and ranchers are in fact 
the first true environmentalists, and I want to thank you for 
the opportunity for being here today.
    [The prepared statement of Mr. Scuse follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Senator Barrasso. Thank you very much for your testimony.
    Mr. Teske.

           STATEMENT OF DONN TESKE, VICE PRESIDENT, 
                     NATIONAL FARMERS UNION

    Mr. Teske. Thank you, Chairman Barrasso, Ranking Member 
Carper, for this opportunity to visit today.
    And especially thank you, Senator Moran, for that more than 
gracious introduction. I have had the honor of considering the 
Senator a friend for many, many years, and the bad thing about 
that is he learns all the dirt on me, so this makes me a little 
nervous.
    My wife, Cathy, and I farm a farm operation in Wheaton, 
Kansas, in Pottawatomie, on the eastern edge of the Flint 
Hills. It is ranching and cropping. We farm it along with our 
children and grandchildren, and we got a slug of grandchildren. 
Grandchildren are fun. I am the fifth generation on the farm. 
God willing, our children will be the sixth and grandchildren 
seventh, and my goal here today is to work together to try and 
figure out how to give them a world they can prosper and thrive 
in.
    I currently serve as Vice President of the National Farmers 
Union. I am not quite sure how that ever worked out, but when I 
was contacted to visit with you today, my initial thoughts were 
to decline the invitation; I thought it would be too 
controversial and didn't think I was any expert to talk about 
it. Upon further contemplation, I kind of suspected that most 
of the testimony would be pretty aggressively antagonistic, and 
I see that was right.
    [Laughter.]
    Mr. Teske. And I thought maybe my experiences with the EPA 
and some of my thoughts could bring some perspective to it all. 
So, this is a good discussion to have.
    Most of us in this room are of the age to remember when the 
rivers were burning in our cities. We fixed them. It didn't 
break us. Our goal through this is to create a world for our 
grandchildren that they can thrive and prosper in, and it is 
our responsibility. This isn't something to push off on our 
children. And it is too late for our ancestors.
    So, somehow, we have to figure out how to work together to 
protect our environment and to allow our farmers to farm 
profitably. And we can do that. But throwing the baby out with 
the bath water by eliminating all regulations is just 
irresponsible. So, we need to work together and think how to do 
this.
    I already have Rob's ulcer acting up. I am rambling away 
from the script, but he will have to put up with that.
    My next thing I wanted to talk about was WOTUS. When WOTUS 
was introduced, it created a vicious backlash, and probably 
rightly so. It wasn't prepared right; it wasn't introduced 
right. Administrator Jackson appointed me to a Farmer Rancher 
Advisory Committee to the EPA, and then later on, Administrator 
McCarthy reappointed me to that, and it is called--and I have 
to read it off. I have a button, and I can't even remember how 
to say it.
    It is the Farm, Ranch, and Rural Communities Federal 
Advisory Committee. So, anyhow, that is actually a pretty good 
deal. I consider it a conduit between rural America and the 
wonks in the EPA, and that is a good thing. We were never 
brought into this discussion as WOTUS was developed or 
introduced, and I wonder how a farmer relationship in there 
might have changed that and how it might have been perceived.
    Another grumbling point along that is the fact that in over 
a year, we have not had a phone call or an e-mail, so it 
shouldn't really matter what Administration is in charge. I 
think the communication between rural America and EPA would be 
a good thing. Why has that ceased to happen?
    I need to hurry up, or I won't cover the top parts.
    In the 1990s I worked for the Kansas Rural Center's Clean 
Water Farms Project. This is a win-win thing. This was EPA 319 
Funds, and I worked with farmers across the State of Kansas 
improving their water quality. They get a stipend grant to help 
them toward that. We hosted tours on it to show their neighbors 
what they were doing. It was all just great. And this is an 
example of how good things can happen as you do this.
    Another great thing was Farmer's Union's Carbon Credit 
Program. We were the nation's leader in carbon sequestration; 
it was modeled after the successful project of the Iowa Farm 
Bureau. We had over 5 million acres enrolled in carbon 
sequestration practices, and they got paid a stipend for that. 
These are good things.
    The Renewable Fuel Standard. I have 7 seconds to talk about 
it. Keep it; it is a good deal.
    [Laughter.]
    Mr. Teske. Thank you.
    [The prepared statement of Mr. Teske follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    
    Senator Barrasso. Well, thank you very much for your 
testimony.
    Thank you, Senator Moran, for taking a picture of him as he 
just concludes that testimony. He can keep talking if you need 
to shoot him. Take three or four.
    Senator Moran. The Chairman never gives anyone more time.
    [Laughter.]
    Senator Barrasso. Let me get started.
    Mr. Secretary, I noted that you gave positive remarks about 
the Renewable Fuel Standard, the RFS, in your testimony. I 
would just note that just last week your boss, the Governor of 
Delaware, petitioned the EPA to reduce the burdens of the 
Renewable Fuel Standard on refineries in Delaware and across 
the country. Your Governor actually stated that the RFS ``will 
undoubtedly severely harm the State of Delaware, the entire 
Middle Atlantic Region, and the national economy.''
    And I ask unanimous consent to enter that Governor's 
petition, from the Governor of Delaware, in the record.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Mr. Hansen, like many producers in the 
West, you have a great deal of experience in dealing with 
Federal agencies that administer grazing permits. You have also 
worked for decades with the agencies, the University of 
Wyoming, State experts to develop and to maintain coordinated 
ecosystem monitoring. You have seen the NEPA process in action 
countless times.
    Can you describe for me the differences that you have seen 
before Federal NEPA processing and the State process for things 
like range management improvements, economic, environmental, in 
terms of value of public lands?
    Mr. Hansen. Thank you, Mr. Chairman. When we were working 
with the State of Wyoming, probably the biggest issue that we 
deal with is water development, and we are generally looking at 
about a 6 month process to turn the permits around with the 
State of Wyoming. Depending on which watershed I am in, working 
with the BLM, I am guaranteed at least a year, probably 2, 
occasionally more. The paperwork and time involved is just 
ridiculous and very burdensome.
    Senator Barrasso. In your discussion with fellow ranchers 
in Wyoming, are you more or less confident in the economic 
direction of ranching and farming under this Administration 
versus dealing with the previous Administration?
    Mr. Hansen. Yes, very much so.
    Senator Barrasso. OK. And what do you think has changed to 
make things better for ranching and farming in Wyoming and in 
other States?
    Mr. Hansen. Definitely have a can-do attitude in the 
agencies. There is a desire to work with the people on the land 
again, back to what we had prior to the last Administration. We 
had people in the agencies that were reaching out and 
identifying issues that we could get together on. Prior to that 
it was a very negative environment, and the morale in the 
agencies was horrible; we were losing good people right and 
left.
    Senator Barrasso. I think at the end of the answer to your 
previous question you talked about how much time it takes to do 
some of this Federal paperwork. You know, in 2008, when the EPA 
provided an exemption to small farms and ranches from reporting 
animal waste emissions under the Comprehensive Environmental 
Response Compensation Liability Act, CERCLA, and EPCRA, the 
Agency determined that limiting the scope of reporting under 
those two laws would reduce the time burden on farms and 
ranches required to report. This was the estimation then of the 
EPA in 2008: 1,290,000 hours over a 10 year period.
    Now, the D.C. Circuit Court overturned that exemption, as 
you know, in April 2017, forcing farmers and ranchers to report 
all of these things.
    So, Mr. Hansen, Mr. Hill, and Duvall, the producers that 
you represent, do they have the ability to spend this kind of 
time trying to comply with these laws?
    Mr. Hansen. Mr. Chairman, the major problem, no, we don't 
have the time. But we don't have the tools. There is no way to 
do it on a range livestock operation. It is impossible.
    Senator Barrasso. Mr. Duvall.
    Mr. Duvall. Yes, sir. You know, when we start thinking 
about reporting--and I expected this question would probably 
come up because it is a big issue across farmland--there is an 
individual farm concern that we have, but I would like for the 
Committee to think about two other concerns, one being public 
safety concerns. You know, if we asked 200,000 farmers to 
report to the National Response Center, which they have to 
respond to, it would overwhelm them and draw resources away 
from actual emergencies.
    The second issue I would like for you to think about is a 
national security issue, because as our farmers start reporting 
their animals and what is being emitted there, then we are 
going to create a roadmap that anybody can find any farm 
anywhere where our food system is produced, and those people 
that lurk around our world trying to do harm to our country and 
to our people will have access to our food supply, and that is 
a very dangerous area to go into.
    And then I will talk about the individual farmer. The 
individual farmer will have to give up his personal 
information, where he lives, and that exposes him to being 
harassed by activists all around. And don't think that is not 
happening, because it does happen.
    Senator Barrasso. Dr. Hill, anything you would like to add 
to this?
    Mr. Hill. Yes. As my friend from Wyoming has said, they 
don't have the tools to do that, and the NAEMS Study was 
designed to help EPA develop those factors, which that program 
was done back in the early 2000s and still hasn't been 
completed. We would at least like to see those factors 
developed so that producers do have some way of estimating, and 
it would only be estimates of what their emissions are in case 
they do have to report it.
    The other thing is we don't consider farming and the 
emissions from a farm as an emergency; that is an everyday 
process. And we ask ourselves who wants this information, and 
in some cases it is the advocates that don't want livestock 
production, and they can misuse that information. In the case 
of Prestige Farms, who was trying to build a packing plant in 
Mason City, Iowa, they had reported back in earlier their 
emissions and 45 farms, and the activists brought that 
information and made the people in the community believe that 
those 45 reports were violations and got the people so aroused 
that they eventually voted down allowing that packing plant to 
occur.
    Senator Barrasso. Thank you very much.
    Senator Carper.
    Senator Carper. I was asked by Senator Booker to yield to 
him. I am happy to do that.
    Before I do that, I would just ask unanimous consent to 
submit for the record a document that demonstrates the robust 
benefit, as pointed out by Secretary Scuse, of the Renewable 
Fuel Standard in Delaware and also in other parts of our 
country.
    The issue that is before us here is East Coast refineries 
and how they are affected by the volatility, the lack of 
clarity--opaqueness--if you will, of RINs, and that is the 
issue that our Governor is raising. EPA could help us resolve 
this, and we have asked them to help us do that, to play a 
constructive role, and my hope is that they will.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    Senator Barrasso. Senator Booker.
    Senator Booker. Thank you very much, Chairman Barrasso, and 
thank you for your generosity, Senator Carper.
    In 2016 residents from Duplin County, North Carolina, came 
to Washington, asking for help. Now, there are about 60,000 
people that actually live in this county in North Carolina, but 
there are more than 2 million pigs being raised there to 
produce pork. And the waste from 2 million pigs, as you 
probably know, Mr. Hill, is equivalent to the waste of about 20 
million people that would produce. And the primary way pig 
waste is being disposed of in Duplin County is by piping it 
into huge, open air manure lagoons and spraying the waste out 
onto open fields.
    These residents came to Washington complaining about 
suffering from very serious respiratory problems like asthma, 
higher rates of asthma, higher rates of eye irritation, 
depression, and numerous other health problems caused by living 
near these lagoons and the spray fields.
    I was so astonished by this; we don't really have these in 
New Jersey, that I actually went down to Duplin County to see, 
firsthand, what was going on. I saw the pig waste being 
sprayed; I watched it with my own eyes. I saw how it was 
misting off of the spray fields into the local community, 
carrying it onto adjacent properties, and the wretched smell, 
everywhere we went, around there in people's communities and 
their homes is something I won't forget.
    I met with local residents in a large group and heard their 
stories, painful stories about how the drinking water in their 
wells has been poisoned by runoff from the CAFOs and how they 
felt like prisoners in their own homes; how they couldn't run 
their air conditioners, couldn't open their windows.
    So, while I agree that we need to make sure our farmers do 
not have unnecessary Government regulations and red tape, I 
also know that something has to be done about these horrible 
conditions I saw that nobody would want their families to live 
in that is harming farmers and the communities they live in. 
And I really want to be clear here, because I do not think it 
should be contract farmers, who, too, are living in challenging 
conditions, often making very low wages at really rough 
margins. I don't think these folks, these good, hardworking 
Americans, some of the most hardworking people I have met, they 
should not have to solve this problem.
    It is the big, huge integrators who make billions of 
dollars in profits. One of the biggest companies down there is 
a Chinese owned company that in many ways, with the pork that 
is being shipped to their country, they are outsourcing these 
problems to us, while taking the benefit of our pork.
    So, Mr. Hill, my time is short, but this was one of the 
more painful things I have seen as an American. And it is a 
long answer to the question, I am sure, so just to respect my 
time, my limited time, could you please provide to me a written 
response for the record about what steps your industry is 
taking to reduce the harmful impact of the kind of CAFOs that I 
saw and they are having on real American people? Could you 
provide that answer for me in writing, sir?
    Mr. Hill. Possibly, we could do that. You know, we have the 
largest population of swine in Iowa, and we have used new 
technology to apply manure.
    Senator Booker. And sir, just for my own time--I apologize, 
I don't mean to interrupt you, but I have other questions. 
Could you just respond in writing? What I saw there, no human 
being should have to live in those conditions. The property 
values around those CAFOs have gone way down. People have been 
on that soil since the 1800s. Please just respond to me in 
writing, because I have some other questions I would like to 
ask you, Mr. Hill.
    Mr. Hill, some of these family farmers are right behind 
you, incredible Americans who I have come to just have a 
reverence for and respect. They are in the hearing room today, 
including some hog farmers amongst them. They have expressed 
serious concerns to me about a different problem, the Pork 
Checkoff Program, which they are required to pay into, but too 
often feel doesn't work to their interests.
    As you know, last week a Federal court found that payments 
of millions of dollars of checkoff funds from the Pork Board to 
your organization, the Pork Producers Council, were improper, 
and they said they must stop.
    Senator Lee, a Republican Senator from Utah, and I have 
introduced a bipartisan bill that would make reforms to the 
Checkoff Program. So, do you agree that it would be beneficial 
to make those programs more transparent so that family farmers 
like the folks behind you, who are doing so much of the real 
work in America, can quickly see the budgets and expenditures 
that are approved by the USDA?
    And do you agree that it is good to have periodic 
independent audits of those checkoff programs so there is a 
fundamental fairness for, again, these small family farmers who 
are struggling so much? And do you agree that checkoff funds 
should only be used in ways that benefit all farmers paying 
into them, especially and including small family farmers that 
are here today?
    Mr. Hill. And they are. They are being used to the benefit 
of everybody. We export, now, 26 percent of all of our pork. 
That increases the value of every pig about $50. In 1993 we 
were a net importer of pork. So those funds are used for a lot 
of different things, but part of it is used for developing 
customers outside of the United States, which our industry 
depends on, which helps every producer that is raising pigs.
    Senator Booker. My time has expired, Mr. Chairman, but a 
judge has disagreed with the gentleman's answer, and you can 
see from the heads shaking back and forth no, there are a whole 
bunch of local farmers around this country who are not getting 
the benefit and feel really mistreated by this program. I think 
it is something that we and Senator Lee and I are trying to 
lead this, that we should reform and change.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    You know, in my work on this Committee, and having chaired 
the Committee for a number of years, it is not difficult to 
understand and come to the conclusion that a lot of these 
costly and outrageous rules are about one thing and one thing 
only, and that is control, and primarily Federal control.
    I have looked at some of the regulations that this 
Administration has done away with, and I tie that directly to 
the success, economic success, the GDP that is coming in and 
jumping up from 1.5 percent a year to over 3 percent a year, 
and good things are happening.
    One of the regulations that I was trying to do away with, 
and this was a year ago, it was the first one that this 
President was successful in doing away with with the 
congressional review process, was a rule that was put in by the 
previous Administration that said that if you are a domestic 
oil or gas company and you are competing with China or someone 
else, you have to give them all of the playbook that you are 
using, actually putting them at a disadvantage over our 
opposition overseas.
    Now, it was easy to draw up a CRA and pass it. It did pass; 
we had a signing ceremony. But you know, the fact that we have 
all these regulations out there is really pretty outrageous.
    Mr. Duvall, you mentioned in your opening statement--you 
talked about the WOTUS bill. Now, I know that when I went 
around my State of Oklahoma before, you took a position, and 
most of the other organizations took the same position that are 
representing farmers, that in my area of Oklahoma, in western 
Oklahoma, it is very arid, and those people out there, of all 
the regulations that were put in by the previous 
Administration, that was the No. 1 regulation, and it ended up 
being the No. 1 regulation also from the American Farm Bureau 
and other organizations.
    So, I would just ask you if there is anything that you 
didn't say about that particular regulation that would either 
be costly, how it would be costly or inconvenient, and have a 
negative effect.
    Mr. Duvall. Yes, sir. If you start looking at some of the 
conservation practices that we put on the ground to protect our 
soil and water on our farms, and you start transitioning land 
from one use to another, not commercial to agriculture, but one 
agricultural practice to another, there are unbelievable 
permitting procedures that certain areas of the country or the 
country has to go through to be able to do that.
    Senator Inhofe. Are you familiar with the panhandle of 
Oklahoma?
    Mr. Duvall. Not really. I am coming to the panhandle of 
Oklahoma, though.
    Senator Inhofe. Their concern was, after a rain, that 
could, all of a sudden, be considered to be a wetland.
    Mr. Duvall. Yes, sir.
    Senator Inhofe. And all of a sudden, you lose the State 
jurisdiction, and the Federal jurisdiction takes over. Do you 
see that consistently around the country?
    Mr. Duvall. I see it consistently, and also I see a 
variance of determination between agencies of what really is a 
wetland, what is not.
    Senator Inhofe. That is exactly right.
    Mr. Duvall. And it is unclear to farmers how they can 
perceive what their land really is.
    Senator Inhofe. I appreciate that very much because that 
certainly is true.
    Mr. Hansen, I want to do this real quickly here because you 
probably are familiar with what we try to do with the lesser 
prairie-chicken and the ESA. We had seven States--I am sorry, 
five States, Oklahoma, Texas, Kansas, New Mexico, and Colorado, 
that got together and they determined what they could do and 
what kind of reform that they could have, and everyone agreed 
it was near perfect; it was everyone deciding at home what the 
solution was.
    Now, you sometimes wonder if we go through all that trouble 
through the private sector, the landowners, and the landowners 
we know are the ones who are most concerned about the 
endangered species, about their own farms and taking care of 
environmental problems, why it is that you look at others doing 
that and Government just doesn't seem to put much weight behind 
that? I am talking about local suggestions, local programs that 
are working. Ever thought about that, Mr. Hansen?
    Mr. Hansen. All the time, Senator. It is very frustrating 
to work on trying to find a solution to an issue that is 
identified on the land and then have the rug pulled out from 
under you. In the situation you address, the Fish and Wildlife 
Service was privy to all the conversations, all the 
negotiations, the plan that was built. They knew what was 
coming; they agreed to it and then pulled the rug out from 
under those operators.
    Senator Inhofe. That is exactly what happened. And by the 
way, Fish and Wildlife did agree. They also agree that the best 
stewards of the land are the landowners themselves, so they 
need to be listened to also.
    Mr. Hansen. Yes, sir.
    Senator Inhofe. Thank you very much.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Carper.
    Senator Carper. I am happy to yield to Senator Merkley, and 
I will have a chance to ask some questions later on.
    Jeff, we are happy you are here.
    Senator Merkley. Well, thank you very much, Senator.
    I appreciate you all bringing your experiences here to 
Capitol Hill. One of the things that is important to my farmers 
back in Oregon is the Agricultural Research Service. The 
Administration had proposed a significant cut, $360 million 
cut, to ARS and closing 17 ARS laboratories across the country. 
And on a bipartisan basis, we worked to keep that program, 
recognizing its impact on the yield of our crops, new diseases, 
and the importance of exploring the qualities of different 
plants that might work under different conditions.
    So, I just wanted to ask you, Mr. Duvall, with your role, 
do you support the Agricultural Research Service? Do you feel 
it is important to American agriculture?
    Mr. Duvall. By all means, Senator. It is so important for 
our country to invest in research and development in 
agricultural business. And if you look around the world, we are 
being outspent in research and development dollars, and that 
really is alarming to us and very concerning to us, that other 
parts of the world are having the opportunity to catch up and 
go ahead in some areas. So, research and development is a very 
key thing that we need to do to help our farmers stay on the 
cutting edge and being competitive in the world.
    Senator Merkley. Well, I am not sure what the next Trump 
budget will look like; we will have it soon, but if it proposes 
cuts again, I hope we will have your support, continuing to 
preserve those programs.
    A second piece that is important to a number of my farmers 
and ranchers are the conservation programs, conservation 
stewardship program, Environmental Quality Incentives Program, 
or EQUIP. This weekend I was out visiting 16 little towns in 
northeast Oregon. In one of the towns I met with a rancher who 
is also a local county commissioner, and he said his ranching 
operation would have gone down if it wasn't for the 
conservation program that helped provide support and resources 
to make the balance, if you will, the books balance. And I 
hadn't heard it put quite in those terms, that it made the 
difference between making it or not making it, but in general, 
is the Farm Bureau supportive of these conservation programs?
    Mr. Duvall. Yes, sir. You have also hit on another topic 
that is very important to us. You know, if we are going to be 
required by regulation to do certain things, and of course, as 
farmers, we want to be able to take care of our land and our 
water, so to have a partnership through those programs with the 
general public and the Government, a partnership, and I will 
emphasize that, to help us do the right thing, help us do the 
right thing, because we are making huge investments ourselves 
in those same projects.
    Senator Merkley. Well, these are voluntary programs that I 
think is pretty much a win-win for everyone.
    Mr. Duvall. It is voluntary, and it is cost sharing.
    Senator Merkley. By the way, he also talked to me about his 
concern on the sage grouse, because we have had a voluntary 
program where ranchers can essentially adopt a certain number 
of measures, and then they are protected from any rules that 
the Endangered Species Act might invoke in the future by having 
been up front and helping, and we had hundreds of ranchers sign 
up for this in Oregon.
    I am not really asking a question about it, I am just 
noting that they are very concerned about the partnership that 
had been put together to try to avoid a listing might fall 
apart under some of the pressures from the current 
Administration.
    I also wanted to ask about the agricultural work force. 
Many of us here, from our orchardists, from our wine makers, 
from our growers in almost every field, the importance of farm 
workers to make that economy function and that a whole lot of 
traditional workers that have been there year after year are 
not showing up under the current prevailing commentary and 
attitude toward the role of farm workers.
    Does the Farm Bureau support working to essentially embrace 
the role of our farm workers as part of our agricultural 
economy?
    Mr. Duvall. Our existing farm workers that are here in the 
country are skilled workers, and our business requires skilled 
workers, and it is vitally important. It is the biggest 
limiting factor to farms to be able to be productive, add to 
the economy of their community, and to be able to create 
additional jobs, whether it be on the farm or manufacturing or 
performing finished products of our commodities after we grow 
them, so it is a critical issue. It is the most restraining 
issue that we have outside of regulation.
    Senator Merkley. I certainly look forward to working with 
you all as we endeavor to address this challenge. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Merkley.
    Senator Wicker.
    Senator Wicker. Dr. Hill, my friend from New Jersey 
outlined a very graphic situation in North Carolina, and in a 
minute I want to give you an opportunity to respond to that 
because the response on the record will be helpful to hundreds 
of people, but there are thousands of people listening on 
television. I think they need to know that I think that what 
you are about to tell us is that it doesn't have to be that 
way, and in your farms in Iowa you have a solution there.
    But what we are talking about with regard to CERCLA and 
EPCRA is a reporting requirement, and Congress thought--we 
thought we had recognized that certain farmers should be 
excluded from this reporting requirement, and the U.S. Court of 
Appeals for the D.C. Circuit disagreed with this exemption. The 
decision has now been stayed, and farmers really don't know 
where they are.
    I notice that Mr. Scuse--in his testimony, Secretary Scuse 
said that we need a legislative fix. And I think probably, Dr. 
Hill and Mr. Duvall, you agree with that. Mr. Scuse said, ``We 
cannot keep putting farmers on notice, wondering when they will 
be hit with legal liability for untimely or inaccurate 
reporting.'' So, I think maybe we have bipartisan support here, 
and consensus, that we need a legislative fix.
    I will tell the members of the panel that Senator Fischer 
and Senator Donnelly, a Republican and a Democrat, intend to 
introduce legislation this week, the Fair Agriculture Reporting 
Method Act, which would clarify this rule to exempt all animal 
feeding operations from CERCLA reporting and small operations 
from EPCRA reporting requirements.
    So, if you could speak to that, Dr. Hill and Mr. Duvall, 
but also go ahead and finish your thought, which might give 
some reassurance in Duplin County, North Carolina, that they 
don't have to experience what was described by my friend from 
New Jersey.
    Mr. Hill. Thank you. Well, first of all, I would say we 
would support that bill 100 percent. We need clarity. What 
producers fear now is that they are going to use inadequate 
tools to try to estimate these emissions, and then, if they are 
wrong, they are going to get huge penalties. So that bill would 
be supported by us.
    I think Senator Booker misrepresented the pork industry in 
North Carolina. I worked in North Carolina for 5 years. That is 
a gross misrepresentation of the farms in North Carolina. They 
do use different technology than we do in Iowa. They have a 
growing crop year round--we do not--so they can use spray 
fields to apply mainly dewater the lagoons. It is not raw 
manure that they are putting on the Bermuda grass.
    In Iowa, almost all of our manure today is incorporated at 
the 4 to 6 inch, No. 1, to prevent runoff; No. 2, to prevent 
smell. So, we feel like we have made tremendous progress in 
this manure application, and there is new technology for pit 
additives, polymers that reduce odor dramatically that 
producers are using, that, along with cover crops. We see a 
tremendous increase in cover crops in Iowa. So I think 
producers are trying to do everything they can to be good 
stewards.
    Senator Wicker. Mr. Duvall, what would the Farm Bureau 
think about this legislation that I described from Senator 
Donnelly and Senator Fischer? And do we agree that what we are 
talking about here is an unfortunate decision by the Circuit 
Court about a reporting requirement on these small operations?
    Mr. Duvall. We do agree with that, Senator, and we applaud 
the Senators that are getting involved in trying to fix 
something that is wrong, that is wrong, and be very difficult. 
My neighbor to my left here has explained it very eloquently. 
It would be put our farmers at risk. I have 400 mama cows that 
have a calf by their side, spread over 1,500 acres in 
Gainsbourg, Georgia. How in the world am I going to monitor 
that? How am I going to report that? And then I have four 
chicken houses. How am I going to report the emissions of those 
animals?
    It just puts us a big liability. There is no need in doing 
it, and it was not the intent of the Congress that we think it 
was, so we would agree with that and applaud it.
    Senator Wicker. Thank you very much.
    And thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    And thank you to our witnesses for joining in this very 
important conversation.
    In my home State of Illinois, the agricultural community is 
our backbone, but also our heart. I have witnessed firsthand 
how, when our farmers thrive, the entire State thrives.
    One policy of critical importance to our farmers is the 
Renewable Fuel Standard, which requires our transportation fuel 
to be mixed with biofuels. Since it was enacted, the policy has 
helped us cut our dependence on foreign oil and our greenhouse 
gas emissions, which is critical to our efforts to combat 
climate change.
    It is also an important economic policy. In Illinois alone, 
the RFS supports more than 4,000 jobs and generates more than 
$5 billion in economic impact. Nationwide, it supports 86,000 
jobs and has helped generate $8.7 billion in tax revenues that 
go to schools, roads, firefighters, all the first responders.
    Mr. Scuse, can you please share how the RFS is helping 
revive rural and agricultural communities?
    Mr. Scuse. Sure. Thank you. Thank you. I would like to 
comment on the Chairman's comment earlier about Governor Carney 
and his opposition to the Renewable Fuel Standard. It deals 
with the purchase of the RINs, or the credits, and the 
blending, and that is something that needs to be addressed 
because of the speculation that has driven the cost of those 
RINs up, and that is something that does need to be addressed.
    But when you look at the Renewable Fuel Standard and what 
it has been able to do for our rural communities, we are 
producing 4.6 billion, 4.8 billion bushels of corn now every 
year. If we weren't using approximately 4.5 billion bushels of 
that for the ethanol industry, which is improving our 
environment, the price of corn would be so far below production 
that we would not be able to produce corn in this country.
    And when you look at the feed value of the by-product, in 
2012, when we had one of the worst droughts in the history of 
the United States and there were those that were arguing to set 
the Renewable Fuel Standard aside because of the fear that 
there would not be enough corn, livestock producers--I traveled 
across the United States talking to producers during the 
drought--livestock producers in every single State that I 
visited said please do not allow EPA to set that fuel standard 
aside; we need the dry distillers grain to feed our livestock, 
whether it was the dairy industry, the pork industry, or the 
beef industry.
    So, when you look at a more cost effective feed, if you 
look at the money--and Senator Moran said it like you just 
did--the health of our rural communities is depending on the 
health and well being of our farmers and ranchers in this 
country, and the Renewable Fuel Standard has done that; it has 
created jobs, it has improved the environment, and it has given 
our producers another outlet for the crops that they produce to 
help keep those rural communities viable.
    Senator Duckworth. So changing biofuel production in this 
country, as EPA Administrator Pruitt, who comes from an oil 
producing State, has called to do for the RFS, could actually 
negatively impact farm prices and farm income.
    Mr. Scuse. Yes, it could have, and would have, a large 
negative impact on the price that our producers are receiving 
for the corn that they produce. And the reality is most 
vehicles on the road today could use E-15. And we now have 
stations across the United States that are now putting in blend 
pumps so that producers or consumers have a choice, they can 
get E-15; and in many cases now there are stations that are 
providing E-85, so I think that is the direction that we need 
to go in, with a renewable energy, not one that we have to pump 
out of the ground that is not renewable. And again, this one is 
helping our rural communities across the country and our 
livestock producers.
    Senator Duckworth. Thank you. I have been burning E-85 in 
my F-150 since 2006, so she burns nice and clean.
    Fifty-five percent of my home State is experiencing drought 
conditions, and the trend nationally is that drought conditions 
are on the rise. Whether you believe they are associated with 
changing climate or not, the fact is that our farmers and 
ranchers are concerned that growing seasons are changing, and 
not necessarily for the better.
    Mr. Teske, as a farmer and a leader in the agricultural 
community, can you please share what types of tools and 
resources farmers and ranchers need to help you adapt to these 
changing climate conditions?
    Mr. Teske. Thank you, Senator Duckworth. In Kansas, it is 
very obvious that we have a changing climate, and so, you know, 
I see farmers getting ready to plant corn and going out in the 
fields in March, and I go to just shake my head. You know, 
there is a coffee shop thing that everybody here, they get 
their machines ready, and then they want to be the first ones 
out in the field, but actually it is working more and more. In 
my own operation, I was an organic farmer for 13 years. I 
finally gave that up because of the changing weather patterns. 
And our springs have changed so much that it got to the point 
where I couldn't slip in between weather events and get the 
ground worked up and worked down and planted, so I had to 
change my operation to match the weather patterns. I wish I was 
still organic.
    Farmers are planting more and more on catastrophic events. 
I heard the Governor of Iowa, a few years back, talking about 
it was the goal of Iowa to deal with climate change by tiling 
the entire State. You know, weather patterns affect different 
areas dramatically, and I happen to be on top of the world, so 
I don't have to worry about floods, but I do have to worry 
about maintaining my stream banks and dealing with ever 
changing climate, especially with livestock.
    Senator Duckworth. Thank you.
    I am out of time, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Duckworth.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. I am very excited 
you are holding this hearing today. I am a rancher, so I 
appreciate Senator Duckworth's comments about farming and 
ranching communities as the backbone and the heart of a State, 
because that is true in Nebraska as well.
    So, thank you, Senator.
    And what a great panel we have; Farmers Union, Farm Bureau. 
I loved your comments, sir, on the RFS and E-15. I have some 
legislation on that, so that is great.
    I appreciated, Dr. Hill, that you had the opportunity to 
respond when Senator Wicker asked you to earlier comments made 
by Senator Booker, so I appreciate that. My husband and I, we 
do have a cattle ranch. Our sons are fourth generation Sand 
Hills ranchers.
    We understand conservation. We understand being true 
environmentalists. Our family does; our neighbors in the Sand 
Hills do; ag producers all across the State of Nebraska do; and 
ag producers, farmers and ranchers, all across the United 
States understand it. We take care of the land. We live on the 
land. We want clean air, we want clean water, and we manage our 
livelihood, our lives to make sure that we have that and that 
we continue to preserve it for future generations.
    I am going to talk to another rancher now. So, Mr. Hansen, 
thank you so much for being here. I would like to build off of 
Senator Barrasso's comments a little bit, if we can. In your 
statement, you discussed reporting requirements for animal 
waste odors under CERCLA and the EPCRA, and with CERCLA 
reports, those are directed to the National Response Center, 
and that is operated by the United States Coast Guard. I don't 
know if people are aware of that.
    They are used by the Federal Government to facilitate a 
Government coordinated emergency response effort to animal 
waste odors, and to me, this really doesn't make a lot of 
sense. Not only is there no added value of these reporting 
requirements, but the abundance of farm reports is going to jam 
up the response personnel at the National Response Center and 
prevent them from responding, I think, to true emergencies.
    Mr. Hansen, can you please describe what measures cattle 
producers would have to take to comply with all of these 
reporting requirements?
    Mr. Hansen. Thank you, Senator. We have no tools to do 
that, so I can't answer the question, I'm sorry.
    Senator Fischer. Well, then you can't fill out the report, 
right?
    Mr. Hansen. Pardon?
    Senator Fischer. You can't fill out the report.
    Mr. Hansen. Exactly.
    Senator Fischer. Right.
    Mr. Duvall and Dr. Hill, you both were talking about 
privacy concerns with these reports, and also concerns with 
activists coming onto personal private property. Do you have 
anything to add to comments that you made earlier on that, 
either one of you?
    Mr. Duvall. You know, our farmers and ranchers are in a 
very difficult economy right now; we don't need to put any 
burden on them. And this presents a huge liability issue for 
them. Farmers and ranchers aren't doing anything wrong out 
there, but when you give them a tool as far as reporting there, 
and I would answer the same, we have no way of measuring that.
    And we would have to hire some expert, and the Government 
could disagree with the expert and make us a hire a different 
one and spend thousands and thousands of dollars that we can't 
afford to do in a very bad economy. Even when it is good we 
couldn't afford it.
    Senator Fischer. Thank you.
    Mr. Hansen, you also mention in your written testimony the 
compliance challenges producers face as a result of the Spill 
Prevention, Control, and Countermeasure, the SPCC rule for on-
farm fuel storage. And while WRDA did include a provision that 
I championed that would provide more flexibility, this 
overreach continues to weigh heavily on the minds of farmers 
and ranchers in Nebraska and across our country.
    As you noted, this rule was originally applied to oil 
refineries, but now ag producers are being forced to also 
comply. So, what do you believe must be done so that we can 
alleviate that burden of that SPCC rule for our farmers and 
ranchers on the fuel storage?
    Mr. Hansen. Thank you, Senator. You know, I guess I would 
have to say we just need to exempt the people out on the 
ground. It is such a different situation; the risk is minimal 
compared to what the Act is designed to address.
    Senator Fischer. Right. And in the previous Administration 
there was a study done that we had requested on this Committee, 
and I would just point out that one of the areas studied was 
leakage with jet fuel. I don't know too many farms and ranches 
that have jet fuel there. So, I think when you have a flawed 
study, it leads to flawed policy and flawed decisionmaking.
    So I would hope that we could move ahead not just on the 
CERCLA rule, but also on the SPCC and in other number of rules 
that are out there that people on the land, everyday producers 
who are trying to take care of their families, take care of 
their communities, find such a disadvantage in trying to fight 
Government every single day.
    Thank you.
    Senator Barrasso. Thank you, Senator Fischer.
    Senator Carper. Thanks, Mr. Chairman.
    I will start on a lighter note. Before we started the 
hearing, I asked Mr. Duvall, I said, where did you get a name 
like Zippy, and he told me, and I think this is worth 
repeating, just very briefly, Mr. Duvall, also known as Zippy. 
I don't know many Zippys----
    Mr. Duvall. Mr. Senator, this is the first time I've ever 
been asked that.
    Senator Carper. Probably in a congressional hearing.
    Mr. Duvall. In a congressional hearing, I will tell you 
that.
    Senator Carper. We could put you under oath, if it is 
necessary.
    Mr. Duvall. Well, by my father's words, he said I was my 
mother's first C-section, second child. He was wanting a big 
family so he could get all his farm work done, and it 
disappointed him, so the nurses said, that's a piece of cake; 
we'll put a zipper in her stomach. So, I got nicknamed Zipper 
and it got moved over to Zippy in the years to come.
    Senator Carper. Does not seem to have impeded your progress 
in life, Mr. President.
    Mr. Duvall. Thank you, Senator.
    Senator Carper. Mr. Teske, I wanted to just clarify what I 
think you said earlier. In the past year, I understood you said 
the Agriculture Advisory Committee has not yet heard from this 
Administration. Is that what you said?
    Mr. Teske. Could you repeat that?
    Senator Carper. I thought I heard you say earlier, you 
talked about hearing from the previous Administration, I think 
with respect to the Agriculture Advisory Committee, and I think 
you also said that you have not heard yet, by phone, by e-mail, 
whatever, from the current Administration. Did I hear you 
correctly?
    Mr. Teske. Yes. Administrator McCarthy had reappointed me 
right before she left that position, with the intention of 
having some continuation from the previous advisory group to 
the next advisory group, and so I would have liked to have 
thought that, if there was any action going on, I would have 
known about it, and it has been total silence.
    Senator Carper. All right; thanks.
    Mr. Teske. I think that is a loss for us all.
    Senator Carper. I think you are probably right. Thank you 
for telling us that.
    If I could, Mr. Secretary, Secretary Scuse, a question 
relating to waters of the U.S. Help us to understand, was it 
not the intention and the result of the Obama administration's 
Clean Water Rule to create certainty in the regulatory process?
    I heard for years that farmers didn't understand; they 
needed clarity in terms of where they would get in trouble. 
Developers needed clarity and certainty, predictability, with 
whether they would get into trouble by developing or raising 
crops in ways that were inconsistent with the Clean Water Act. 
And as a result of that, the effort was launched to develop 
what we call the waters of the U.S. We did literally a town 
hall meeting on a farm in Delaware, as you may recall, and had 
farmers there, developers there, and we had folks from EPA, 
from the Army Corps of Engineers. This was like a couple years 
ago, to actually understand what was being asked; what was 
needed in the way of certainty.
    And it sounds like, from some of the testimony we have 
heard here and comments in other places, that everything was 
fine, and we didn't have uncertainty before. Actually, I think 
we had a lot. So WOTUS was an effort to try to deal with that.
    You were in the middle of this as the Acting Secretary, the 
Acting Deputy Secretary, and so forth, so your thoughts, 
please, I think would be illuminating. You were on the inside.
    Mr. Scuse. Thank you, Senator. I think, you know, we need 
to take a step back and look at why all of this happened. And 
if memory serves me correctly, all of this resulted from a 
Supreme Court hearing with the EPA in the Chicago area, where 
there was a wetland that they deemed was waters of the U.S. 
that was not connected to any other waters.
    So, when you look at the confusion with that case, and then 
the EPA attempted to define what in fact were waters of the 
U.S. and the overreach by the EPA in attempting to come to what 
constituted waters of the U.S., I think that is when we started 
down the road to look at what does constitute waters of the 
U.S.; what do we need to put in place to protect certain waters 
that we have across the United States.
    So, the last Administration attempted to bring that 
certainty, in fact, to the producers and to other areas of the 
United States to show what in fact was waters of the U.S.
    As the Senator pointed out, there were the hearings in the 
State of Delaware, reached out to all of our communities that 
we thought would be impacted. But unfortunately, I don't know, 
Senator, that that happened in other areas of the United 
States. But this was an attempt by the Obama administration to 
bring some clarity that was being demanded by all the sectors; 
not just the agriculture sector, but other sectors as well, as 
to what did in fact constitute waters of the U.S.
    Senator Carper. Thank you very much. My recollection was 
that as the Waters of the U.S. rule was being developed, there 
were 4 years of extensive public outreach and regulation 
development--4 years; hundreds of meetings with farmers, 
ranchers, developers, State and local leaders, and others, 
including in our State; a review of some 1,200 peer reviewed 
scientific studies; robust legal policy and economic analyses; 
and consideration of over 1 million public comments without any 
effort to rebut the rule or build a new informed or credible 
basis to pursue a different course. A million comments, and I 
am told they were essentially all responded to.
    So, I just want to put that out there for the record. Thank 
you for your clarification, as well.
    Mr. Chairman, if I could, maybe one last question, and this 
will be for the entire panel.
    Again, thank you all for coming here today. I appreciate 
what you do in your lives in the real world, the rest of the 
world, with your families and all, and we appreciate very much 
your being here and sharing your insights with us, regardless 
of what your first names are.
    As the Chairman knows, I like to look for win-win 
opportunities, he does, too, and rather than being in conflict 
with one another, I see many potential opportunities for win-
win outcomes with regard to environmental policy in farming and 
ranching communities. You have talked about that today; each 
one of you have.
    For example, if there is an application in fertilizer that 
could reduce farmers' input costs and reduce nitrogen runoff 
and greenhouse gas emissions of nitrous oxide; roll till 
farming is another we oftentimes hear about, but oftentimes 
there are barriers that prevent us from achieving these win-win 
outcomes.
    We here in Congress can help break down those barriers so 
that we can then all seize these opportunities, and maybe each 
of you could just give us a good example of a win-win 
opportunity out there that is waiting to be seized if we would 
just seize it, and how you might help us achieve that.
    And if I could, I am just going to start off. I was joking 
with him earlier; he had his hat on and everything, and I said, 
I was just listening yesterday to one of my favorite CDs, Glenn 
Campbell's Greatest Hits. The Chairman and I are big music 
buffs. And the first song there was Rhinestone Cowboy. You came 
in here today, and I said, there's a rhinestone cowboy.
    But actually, you are the real deal, so would you just lead 
us off, please, Niels? Would you just lead us off, please? 
Again, we are looking for a win-win, just an example of another 
win-win opportunity. You cited a number of them in each of your 
testimonies, win-win opportunities where cleaner environment, 
cleaner air, cleaner water, and actually more profitable 
farming actually coexist well. They work together; they don't 
exclude another.
    But just another, maybe, example of where we can do that, 
should do that. If you have an example of an area that you 
think is fertile for us to explore and to participate, to help 
nurture, we would be happy to do that. If anybody else wants to 
jump in.
    Zippy, you look like you are ready to say something.
    Mr. Duvall. Yes, sir, Mr. Senator. There are a lot of 
situations where we have regulations that are overlapping, and 
we are looking into things twice, where, you know, if we could 
just simplify it and do it efficiently, for example, FIFRA has, 
over 40 years, had the responsibility of doing approval of 
pesticides. You know, there is no reason for the Clean Water 
Act to be involved in it and ask them to make the same 
judgments that FIFRA has been doing for 40 years. And that is 
just one example.
    You know, farmers and ranchers want to do the right thing, 
and in the past we used to go to our extension service or the 
FSA to ask for advice and get help and look for a partner for 
us to do the right thing on the farm. We are scared of our 
Federal agencies now. We are actually fearful of them because 
we know that they could cost us hundreds of thousands of 
dollars trying to arrange permitting and hiring consultants and 
lawyers to be able to get to that.
    We want to be a partner with our Federal Government. We 
want to have agencies that are friendly to us, and we are 
hoping that we can work with you to make that happen.
    Senator Carper. Thank you.
    Others, please.
    Mr. Hill.
    Mr. Hill. I would use the example of the nutrient reduction 
program that we have in Iowa that is supported by our Governor, 
our past Governor, and our current Governor, and also by our 
secretary of agriculture. It is a voluntary cooperative 
project; it was just funded by the State legislature for over a 
10 year period for $300 million. It is projects that producers 
work in conjunction with State regulatory agencies to put 
processes in place to reduce runoff, reduce contamination of 
water, and I think it is the right way to go, a cooperative, 
voluntary program, rather than somebody from Washington coming 
down and saying this is what you have to do. Producers respond 
to it a heck of a lot better.
    Senator Carper. Thank you for that.
    I would just say to Secretary Scuse it reminds me a little 
bit of what we did in Delaware, what we have done in Delaware.
    Would you opine for us, too, Michael?
    Mr. Scuse. You know, Senator, there are a lot of different 
examples. You know, I look at what we did in Delaware when we 
created--when you created, as then-Governor, the Nutrient 
Management Commission and the great things that we have been 
able to do to help clean up our waters that ultimately 
discharge into the Chesapeake.
    I mean, there is a great example of everyone working 
together to make that happen. And the latest Chesapeake Bay 
model, I think you will be pleased to know, will show that 
Delaware has had tremendous improvements in a very short period 
of time.
    You know, we heard about the act for those that are 
endangered species. I am here to tell you that, yes, there are 
some things that could be done differently, but in my home 
State of Delaware--your home State of Delaware, Governor--
pretty much every day now I am seeing bald eagles, something 
that, when I was a child, we never ever saw today. You look at 
some of the other things that are occurring where----
    Senator Carper. Bald eagles or did you say Philadelphia 
Eagles?
    [Laughter.]
    Senator Carper. I couldn't resist. I could not resist. 
Excuse me.
    Mr. Scuse. Good catch, Senator. I said bald eagles. I meant 
Philadelphia Eagles.
    You know, you look at, by working together, we all know, 
all of us at this table understand that there is a serious 
issue with honey bees across the United States, and with USDA, 
EPA, and our State partners working together to help find a 
solution to those problems in areas, we are making a 
difference.
    The monarch butterfly is an issue where we are seeing rapid 
declines of the monarch butterfly. But now we have States 
working with our Federal partners to plant, you know, milkweed 
along some of our highways to make sure that, you know, we have 
the proper habitat for those areas.
    And I know there is legislation that you are working here 
to renew that, but the Pesticides Registration Act that helps 
companies do the research for our producers to help them do a 
better job and get better projects to our producers, there is 
another area where these things actually do work.
    Can there be a better job? There is no doubt about it. 
Senator, there can be a better job in many of these areas. But 
I think what we need to do when we start looking at regulation 
is working together with all of those that are ultimately 
impacted, and listening and finding a solution. And in that way 
we can eliminate, in my opinion, some of the problems that we 
have had over past Administrations with the implementation of 
regulations.
    Senator Carper. Let me just ask the other panelists if you 
approve that message; would you raise your hand?
    Let the record show the other four panelists raised their 
hands. Good.
    All right, Mr. Teske, please, same question, please.
    Mr. Teske. Thank you, Senator. There are two things I would 
like to discuss, and both of them are in regards to mitigating 
and adapting to climate change, which is something I am 
passionate personally about. No. 1 is whatever we do as we move 
forward to mitigate climate problems, a huge part of that is 
going to have to be agricultural involvement. We are the 
stewards of the land. We are the stewards of the carbon sink.
    Another, if cap and trade ever comes to be, and we can 
reimplement a carbon trading program, that is a win-win all the 
way around. That is sequestering carbon; that is making better 
soils; that is paying a producer a stipend for doing the right 
thing. That is just logical. And the models there can be very 
successful, and it can make significant differences quickly. It 
isn't going to be the only solution to the problem, but we are 
a key part of it.
    And then the other one is the further evolution of the 
renewable fuels and the Renewable Fuel Standard. If we can grow 
beyond the status of corn ethanol into perennial crops and 
higher value crops that use less moisture and less nutrients, 
we could see dramatic differences in our future with renewable 
fuels.
    So, I think there is potential in both and win-wins in 
both.
    Senator Carper. Thank you very much.
    Mr. Chairman, I kid him when I say I go to Wyoming about 
every other week, Camden, Wyoming; it is a little town just 
south of Delaware.
    But we have great pressures in our State, a little State. A 
lot of people want to come to our beaches; great 5 star 
beaches. And a lot of people come, which is good. Tourism is 
real important for us, but it drives development, and we have 
to be careful that we just don't overdevelop our State.
    One of the things we worked on when I was Governor, and 
before that, Mike Castle, and since then with your 
administration when you worked with Governor Minner, was how do 
we encourage farmers to stay on the land. And one of the best 
ways to encourage farmers to stay on the land, instead of 
development taking over, is with farmers being able to make 
money and to be profitable. And Mr. Teske, you just mentioned a 
couple of things that will actually help to do that, and I 
think we need to be mindful of that.
    There are obviously things that we disagree on that we 
talked about here today, but there is actually a lot that we 
agree on, and the Chairman's colleague from Wyoming, Mike Enzi, 
Senator Enzi likes to talk about the 80/20 rule. When I first 
heard him talk about it, he said the 80/20 rule explained why 
he and Ted Kennedy got so much done on the Health, Education, 
Labor, and Pension Committee; one a very conservative 
Republican, the other a very liberal Democrat.
    Mike Enzi introduced me to the 80/20 rule. He said, Ted and 
I agree on 80 percent of the stuff; we disagree on 20 percent 
of the stuff. And what we decided to do was focus on the 80 
percent where we agree; set the other 20 percent aside for 
another day. That is the 80/20 rule, right out of the mouth of 
a former mayor of Gillette, Wyoming. It is actually a good rule 
for not just the Health, Education, Labor Committee, but a good 
rule for this Committee and I think for the Congress as a 
whole.
    This has been a wonderful hearing. Thank you all.
    Mr. Chairman, thanks for bringing us together.
    Senator Barrasso. Thank you, Senator Carper.
    Mr. Hansen, it looked like you were trying to say something 
to answer one of the responses. Anything you would like to add 
today?
    Mr. Hansen. Thank you, Senator. I would like to address 
Senator Carper's question. I have to ask your forgiveness. I am 
very dedicated about what I do, but I can't hear a thing.
    [Laughter.]
    Mr. Hansen. When it comes to working together, the field is 
ripe with opportunity in the West on Federal lands, and in our 
operation we have proven that there is common ground, and there 
is a lot of common ground, but we always run into the headache 
of the Federal regulation.
    NEPA is a huge one. We get tied up in the paperwork, the 
decisionmaking process on something that should be really 
simple to do. So, expanded authority on categorical exclusions, 
if we could get a lot of the red tape pulled out of the way, 
the unnecessary questions and timetables, would really assist 
us in improving things on the land. And every time we do 
something good on the land, it affects everything. On our 
operation, we have increased our elk population, our mule deer 
population, our antelope population, and have increased our 
livestock, creating a more profitable operation.
    Senator Carper. Thank you. That was worth waiting for. 
Thanks very much.
    Senator Barrasso. And when I asked three of you earlier 
about the time it would take to try to do some of this 
paperwork requirements, I think you had said, Mr. Hansen, you 
didn't have the tools and the time; Dr. Hill as well.
    While you raised the issue about trying to report, and 
Senator Fischer did as well, to this National Response Center 
on the release, it is the Coast Guard, of all things. They have 
expressed concern that this dramatic increase in reporting is 
going to overwhelm the capacity to deal with this. They 
estimate the volume of calls that they get now, the NRC would 
increase from about 100 calls a day to over 1,000, hindering 
their own ability to respond to real emergencies. So that is 
the additional side of this that sometimes Government comes up 
with ideas and mandates that make it a lot harder for them to 
do the job that we need them to do in terms of the guarding of 
the coasts.
    I do have one question for you, Mr. Duvall, because it has 
to do with waters of the U.S. and the Clean Water Act. The 
Corps of Engineers is the agency that makes the vast majority 
of jurisdictional determinations that identify waters that are 
regulated under the Clean Water Act. Now, according to 
testimony this Committee heard during a hearing with the Corps 
last year, in April, the Corps was not included fully in this 
whole process that we just had outlined here, in terms of 
developing the 2015 WOTUS rule. You talked about 1 million 
people testifying and all of those things.
    In fact, the Corps stated that they did not believe that 
the rule and the preamble, as ultimately finalized, they say 
``were viable from a factual, scientific, or legal basis.'' And 
the Corps went on to say ``It would be incredibly difficult for 
the Corps leaders, regulatory and legal staff, to advance and 
defend this rule.'' So that is the Corps of Engineers.
    They also testified in statements and characterizations 
that the WOTUS rule is a joint product by the EPA and the 
Corps, which is what the EPA said, a joint product of the EPA 
and the Corps, the Corps says are flat false, flat out false.
    So, my question to you is, given these statements by the 
Corps of Engineers, how much faith do we have in the science 
behind the current WOTUS rule as proposed by the previous 
Administration?
    Mr. Duvall. We have no faith in it because in different 
Corps districts you have different people that are making those 
determinations and judgments, and there is no scientific basis 
that they can base their decisions on. And we can show you 
situation after situation where farmers have spent money with 
consultants and lawyers, and were able to put in for a permit, 
for a Corps or a regulatory person to say, no, I don't agree 
with you and send you back to the drawing board to spend that 
money again and try to get them to agree with you. And it is 
all over the board; there is no consistency.
    You know, I had the opportunity to have lunch with Mr. 
Pruitt the other day, and he asked me what did we need in the 
Clean Water Act, a definition of navigable waters. I said, you 
know, a farmer knows his land better than anyone else does 
anywhere, especially better than the people looking at it from 
a computer, and we ought to be able to ride out in that field 
in our pickup and simply be able to identify what navigable 
waters are and waters of the U.S. And if we could do that, we 
could take a huge financial burden off our farmers. We could 
create more jobs, add to our communities, and we are not going 
to destroy it. My land, every piece of it is like my house. I 
am not going to do anything to destroy or hurt my land or the 
water around it, because I want my great-great-grandchildren to 
be able to be there.
    Senator Barrasso. Senator Carper, you had a quick question?
    Senator Carper. Just a quick unanimous consent request, Mr. 
Chairman, to submit additional documents related to the topic 
of environmental regulatory impacts on farming and ranching 
communities for the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Senator Carper. And again to say to our friends and 
witnesses, thank you so much for joining us today.
    Senator Barrasso. Thank you all.
    Other members may submit questions for the record, and we 
ask that you respond quickly. The record of this hearing will 
stay open for the next 2 weeks. I want to thank all the 
witnesses for your time, your testimony on this very important 
issue.
    The hearing is adjourned.
    [Whereupon, at 11:50 a.m. the Committee was adjourned.]

                                 [all]


</pre></body></html>
